IN THE SUPREME COURT OF THE UNITED STATES

FRENCH, MALCOLM A.
Petitioner
vs.

No:

20-1256

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
March 15, 2021
cc:
JAMESA J. DRAKE
DRAKE LAW, LLC
PO BOX 56
AUBURN, ME 04212
THOMAS F. HALLETT
HALLETT, WHIPPLE & WEYRENS
6 CITY CENTER
SUITE 208
PORTLAND , ME 04101

